INSPECTOR GENERAL’S STATEMENT
SUMMARIZING THE MAJOR MANAGEMENT
AND PERFORMANCE CHALLENGES FACING
THE U.S. DEPARTMENT OF THE INTERIOR




Report No.: ER-SP-MOI-0008-2014   October 2014
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                              OCT 2 0 2014
Memorandum

To:             Secretary Jewell

From:          Mary L. Kendall
               Deputy Inspector Gene -

Subject:       Inspector General's Statement Summarizing the Major Management and
               Performance Challenges Facing the U.S. Department of the Interior
               Report No. ER-SP-MOI-0008-2014

         In accordance with the Reports Consolidation Act of 2000, the Office of Inspector
General (OIG) is submitting what it determined are the most significant management and
performance challenges facing the U.S. Department of the Interior (DOl). The challenges listed
are for inclusion in DOl's "Agency Financial Report" for fiscal year 2014. These challenges
reflect those that OIG considers significant to departmental efforts to promote economy,
efficiency, and effectiveness in its bureaus' management and operations.

        We identified the top management and performance challenges as-

        •   energy management;
        •   climate change;
        •   water programs;
        •   responsibility to American Indians and Insular Areas;
        •   information technology;
        •   disaster response;
        •   operational efficiencies; and
        •   public safety.

        We met with DOl officials to gain their perspective and together agreed on the challenge
areas. These areas are important to DOl's mission, involve large expenditures, require
continuous management improvements, or involve significant fiduciary relationships. We
believe DOl would benefit by developing strategies to identify and address challenges in these
areas, especially in those that span bureau and program lines.




                               Office of Inspector General I Washington, DC
Table of Contents
Introduction and Approach ..................................................................................... 1
Energy Management ............................................................................................... 2
   Government Accountability Office’s High-Risk List ......................................... 2
   Summary of OIG Work ....................................................................................... 3
   Looking Ahead .................................................................................................... 6
Climate Change ..................................................................................................... 10
   Summary of OIG Work ..................................................................................... 10
   Looking Ahead .................................................................................................. 11
Water Programs .................................................................................................... 17
   Summary of OIG Work ..................................................................................... 17
   Looking Ahead .................................................................................................. 17
Responsibility to American Indians and Insular Areas......................................... 20
   Summary of OIG Work—Indian Affairs .......................................................... 20
   Looking Ahead—Indian Affairs ....................................................................... 22
   Summary of OIG Work—Insular Areas ........................................................... 25
   Looking Ahead—Insular Areas ........................................................................ 27
Information Technology ....................................................................................... 28
   Summary of OIG Work ..................................................................................... 28
   Looking Ahead .................................................................................................. 29
Disaster Response ................................................................................................. 33
   Summary of OIG Work ..................................................................................... 33
   Looking Ahead .................................................................................................. 35
Operational Efficiencies........................................................................................ 37
   Summary of OIG Work ..................................................................................... 37
   Looking Ahead .................................................................................................. 40
Public Safety ......................................................................................................... 42
   Summary of OIG Work ..................................................................................... 42
   Looking Ahead .................................................................................................. 43
Conclusion ............................................................................................................ 45
Introduction and Approach
In accordance with the Reports Consolidation Act of 2000, the Office of Inspector
General (OIG) is submitting what it has determined to be the most significant
management and performance challenges facing the U.S. Department of the
Interior (DOI). These challenges reflect those that OIG considers significant to
departmental efforts to promote economy, efficiency, and effectiveness in its
bureaus’ management and operations.

OIG identified the top management and performance challenges as—

   •   energy management;
   •   climate change;
   •   water programs;
   •   responsibility to American Indians and Insular Areas;
   •   information technology;
   •   disaster response;
   •   operational efficiencies; and
   •   public safety.

The challenges are not presented in order of priority. Each is critical to the
management or performance of DOI operations.

This report is based on specific OIG and U.S. Government Accountability Office
(GAO) reviews and other reports, as well as our general knowledge of DOI’s
programs and operations. Our analysis generally considers those accomplishments
that DOI reported as of September 30, 2014.

Eight challenge areas are included in this year’s report. These areas are connected
to DOI’s mission, involve large expenditures, require continuous management
improvements, and involve significant fiduciary relationships. We believe DOI
would benefit by developing strategies to identify and address challenges in these
areas, especially in those that span bureau and program lines. In addition to
providing summaries of OIG work, as done in previous reports, this year’s report
introduces a “Looking Ahead” section that offers a more forward-thinking context
for critical topics under each challenge area.




                                                                                 1
Energy Management
DOI plays a central and essential role in powering America’s future through the
development of our Nation’s domestic energy resources. The Department has
jurisdiction over 1.7 billion acres of the Outer Continental Shelf (OCS), manages
500 million acres of public lands, and manages 700 million acres of subsurface
minerals throughout the Nation. Approximately 30 percent of the Nation’s energy
production comes from projects on DOI-managed lands and offshore areas.

Through modernizing practices, leveraging technology, and looking across the
Government and industry for best practices, DOI aims to manage and develop
energy resources in an environmentally and economically responsible manner.

DOI’s oversight of Federal lands encompasses the responsibility to protect the
environment and preserve the country’s natural resources for current and future
generations. DOI’s role in clean energy development was solidified in June 2013,
when the President’s Climate Action Plan challenged DOI to permit 20 gigawatts
of clean energy on public lands by 2020.

Government Accountability Office’s High-Risk List
In February 2011, GAO added DOI’s management of Federal oil and gas
resources to its biennial list of Federal programs and operations at high risk for
waste, fraud, abuse, and mismanagement or in need of broad-based
transformation. 1 The GAO report specified ongoing challenges in three broad
areas: (1) collection of revenue from oil and gas produced on Federal lands;
(2) hiring, training, and retaining staff; and (3) restructuring oil and gas programs.

In a 2013 update, GAO noted that progress had been made in DOI’s management
of Federal oil and gas resources but that the program remained on the High-Risk
List. 2 The GAO report specified ongoing challenges in the two areas of revenue
collection and human capital. GAO initiated three reviews related to the
management of Federal oil and gas resources on public land and Federal waters in
the OCS.

The first report 3 addressed GAO’s concerns related to the quality and continuity
of operations during the reorganization that created the Bureau of Ocean Energy
Management (BOEM) and the Bureau of Safety and Environmental Enforcement
(BSEE). GAO noted that DOI’s inspections of offshore Gulf of Mexico oil and
gas drilling rigs and production platforms routinely identified violations and that
the Department’s database was missing data on when violations were identified as
well as violation correction dates for about half of the violations issued. GAO

1
  GAO Report GAO-11-278: “High-Risk Series: An Update.” Published February 16, 2011.
2
  GAO Report GAO-13-283: “High-Risk Series: An Update.” Published February 14, 2013.
3
  GAO Report GAO-12-423: “Oil and Gas Management: Interior’s Reorganization Complete, But
Challenges Remain in Implementing New Requirements.” Published July 30, 2012.


                                                                                        2
noted that DOI does not know on a real-time basis whether or when all violations
were identified and corrected, potentially allowing unsafe conditions to continue
for extended periods. Although DOI began implementing a number of policy
changes to improve both its inspection and civil penalty programs, GAO noted
that the Department had not assessed how these changes would affect its ability to
conduct monthly drilling rig inspections. Additionally, GAO noted that DOI
continues to face challenges following its reorganization that may affect its ability
to oversee oil and gas activities in the Gulf of Mexico. Specifically, DOI’s
capacity to identify and evaluate risk remains limited, raising questions about the
effectiveness with which it allocates its oversight resources. GAO made
recommendations for improving the effectiveness of inspections, categorizing oil
and gas activities according to risk, and planning strategically for information
technology and workforce efforts.

GAO’s second report focused on human capital for oil and gas management in
BOEM, BSEE, and the Bureau of Land Management (BLM). 4 GAO found that
DOI continues to face challenges hiring and retaining key oil and gas staff
primarily because of higher industry salaries and the lengthy Federal hiring
process. DOI has taken some actions to address hiring and retention challenges;
however, ongoing hiring and retention challenges have made it more difficult to
carry out some oversight activities. GAO recommended that DOI (1) expand use
of existing authorities, including recruitment, relocation, and retention incentives;
and (2) systematically collect and analyze data on hiring times for key oil and gas
positions to identify the causes of delays in the hiring process.

GAO’s third report focused on oil and gas revenue management in BOEM, BSEE,
and the Office of Natural Resources Revenue (ONRR). 5 GAO reviewed DOI’s
collection of oil and gas revenue and steps the Department has taken to ensure the
public receives a fair return on oil and gas resources. GAO found that DOI has
taken some steps to help ensure a fair return, but does not have procedures for
periodically conducting assessments of the fiscal system. GAO recommended that
DOI establish documented procedures for (1) periodically assessing the fiscal
system and (2) determining whether and how to change new offshore lease terms.
BOEM is developing procedures, which are due in fiscal year (FY) 2016.

Summary of OIG Work
During FY 2014, OIG conducted five reviews that focused on oil and gas
permitting and the management of oil and gas activities. During this same period,
approximately 18 percent of OIG investigations were identified as energy-related.




4
  GAO Report GAO-14-205: “Oil and Gas: Interior Has Begun To Address Hiring and Retention
Challenges But Needs To Do More.” Published January 31, 2014.
5
  GAO Report GAO-14-50: “Oil and Gas Resources: Action Needed for Interior to Better Ensure a
Fair Return.” Published December 6, 2013.


                                                                                           3
Onshore Oil and Gas
Onshore Oil and Gas Permitting
Oil and gas production is a major activity on Federal and Indian lands, with
annual royalty revenues averaging $3 billion. About 92,000 oil and gas wells
currently exist on Federal lands, and industry drills more than 3,000 new wells
annually. Prior to drilling a well using a Federal permit, an operator must submit
an application for permit to drill (APD). BLM has primary responsibility for
approving the APD, but coordinates with other Federal agencies—primarily the
Bureau of Indian Affairs (BIA) and the U.S. Department of Agriculture’s Forest
Service—when the proposed well site is under these agencies’ jurisdiction. BLM
receives about 5,000 new APDs each year, which it processes at 33 field offices,
mostly in the Western States.

In June 2014, OIG completed an evaluation of the effectiveness and efficiency of
BLM’s drilling permit process. We found long review times, insufficient process
management, and inadequate database management. In addition, we found that
BLM does not have a results-oriented performance goal to address processing
times. Delays in the permitting process can result in lost royalties to the Federal
Government and Indian mineral owners. We made six recommendations that we
believe should significantly increase BLM’s capability to process APDs, thereby
reducing processing times and lessening the burden on industry and BLM.

BLM Oil and Gas Trespass
OIG issued an inspection report on BLM’s policies and procedures to detect and
deter trespass and drilling without approval (DWOA) into the Federal oil and gas
mineral estate. We found that BLM does not have nationwide policies and
procedures to detect trespass and DWOA. We also found that BLM has no
nationwide policies to deter or process trespass. Lastly, we found that BLM’s
weak policies do not significantly deter cases of DWOA.

With industry’s increasing use and expansion of horizontal drilling, the potential
for trespass or DWOA into Federal minerals has also increased. Since Federal and
private lands are often in close proximity, it is easier for operators of wells on
private lands to drill into the Government’s subsurface mineral estate. The Federal
Government is at risk, therefore, of not receiving royalty payments. This is
particularly true in States with highly fragmented Federal mineral ownership,
such as North Dakota and Oklahoma. In the past several years, for example,
BLM’s North Dakota Field Office identified about 10 cases of potential trespass
and 70 cases of DWOA, and BLM’s Oklahoma Field Office identified about
40 cases of DWOA. We made four recommendations to help BLM monitor and
deter trespass and DWOA and ensure uniform and appropriate handling of these
violations.

Osage Agency’s Management of the Osage Nation’s Energy Resources
OIG issued a report that assessed BIA’s Osage Agency’s effectiveness in
managing the Osage Nation’s oil and gas program. The Osage Nation is a


                                                                                     4
federally recognized tribe, primarily located on the Osage Reservation in
Pawhuska, OK. The Osage Agency oversees and provides services to the Osage
Nation and its mineral estate, which covers approximately 1.5 million acres in
Osage County, OK. The combined oil and gas royalties in FYs 2010 and 2011
were $224 million. Osage Agency officials expect that operators will drill an
additional 7,500 wells between FYs 2012 and 2027, generating $13.6 billion in
estimated royalties.

Our evaluation found weaknesses in many aspects of the Osage Agency’s oil and
gas activities, including issues with policies and procedures, environmental
compliance, planning and mineral resource management, and data management.
A substantial cause for these deficiencies is poor oversight by prior Osage Agency
superintendents and insufficient capabilities of Osage Agency staff. We made
33 recommendations to help correct the identified weaknesses and improve the
Osage Agency’s management of the mineral estate.

Evaluation of DOI Underground Injection Control Well Activities
After completing the survey phase of an evaluation into Class II underground
injection control wells on DOI lands, we determined that further review of these
wells was not warranted and issued a closeout memorandum on December 19,
2013. The U.S. Environmental Protection Agency (EPA) defines Class II wells as
injection wells associated with oil and gas production, disposal of fluids
associated with oil and gas production, and hydrocarbon storage (but not
hydraulic fracturing unless diesel fuel is used). In the closeout memorandum
issued to BIA, BLM, the U.S. and Wildlife Service (FWS), and the National Park
Service (NPS), we identified three issues that merited DOI’s attention: (1) the
need for clear and consistent memoranda of understanding to govern well
operations; (2) misclassification of certain wells in a State database; and
(3) abandoned oil and gas equipment in a wildlife refuge. We have initiated a
separate OIG review of orphaned and abandoned oil and gas wells on wildlife
refuges.

Offshore Energy
Evaluation of Offshore Oil and Gas Permitting Activities
OIG issued an evaluation report that assessed BSEE’s effectiveness and efficiency
in reviewing and approving oil and gas permits on the OCS, as well as to follow
up on the seven permitting recommendations from our 2010 OCS report, four of
which have been closed in the past 4 years.

This permitting program annually returns more than $5 billion in royalties to the
Federal Government, and its efficient management plays a critical role in
safeguarding this Nation’s natural resources. Our evaluation found that BSEE
conducts drilling permit activities with limited oversight from its headquarters
office in Washington, DC. This creates policy differences among regions as each
region develops its own policies without headquarters review or, conversely,
develops its own procedures in the absence of preexisting headquarters policies.


                                                                                    5
We made 9 recommendations to enhance management of the offshore oil and gas
permitting program. These recommendations should help BSEE standardize
policies and procedures among its regions; improve communication concerning
newly created policies; and implement its electronic permit system across all
regions to increase transparency and efficiency.

Deepwater Horizon Task Force
OIG continued to provide resources to the Deepwater Horizon Task Force that
was formed to investigate the worst environmental catastrophe in U.S. history.
As a result of the task force’s investigation, three companies have pleaded guilty.

Five individuals have also been charged in this case. On December 18, 2013, a
jury in New Orleans, LA, convicted a former engineer of intentionally destroying
evidence related to the oil spill. In January 2014, a former manager was sentenced
to 1 year of probation after pleading guilty to destroying evidence related to the
case. Obstruction and false statements charges are pending against a former
executive, and manslaughter and other charges remain against two former well
site leaders.

Looking Ahead
Oil and Gas Revenues and Permitting
Although DOI has restructured its oil and gas program, transferring offshore
oversight responsibilities to BOEM and BSEE and assigning the revenue
collection function to ONRR, this restructuring did not include BLM’s
management of onshore Federal oil and gas activities. BLM is charged with one
of the most complex missions of any land-use agency—managing for multiple use
and sustainability of more than 250 million surface acres and 700 million acres of
mineral estate.

Long review times associated with the APD process have created uncertainties for
both industry and BLM. Both the Federal Government and Indian mineral owners
risk losing royalties from delayed oil and gas production, and if not corrected,
delays in the process will likely cause some wells not to be drilled, resulting in
additional losses in production and revenues. BLM has been developing and
executing plans to address these and other deficiencies identified in reports issued
by OIG and GAO.

BOEM manages about 6,100 active OCS leases, covering more than 33 million
acres, with the vast majority in the Gulf of Mexico. Of those, 1,023 are producing
leases, covering over 5 million producing acres. In 2013, OCS oil and gas leases
accounted for about 18 percent of domestic oil production and 5 percent of
domestic natural gas production. The Outer Continental Shelf Lands Act requires
the Secretary of the Interior, through BOEM, to prepare and maintain a schedule
of proposed oil and gas lease sales in Federal waters, indicating the size, timing,
and location of auctions that would best meet national energy needs for the 5-year
period following its approval. In developing the schedule (“Five Year Program”),


                                                                                      6
the Secretary is required to achieve an appropriate balance among the potential for
environmental impacts, for discovery of oil and gas, and for adverse effects on the
coastal zone.

The current Five Year Program (for 2012 – 2017), which expires in August 2017,
schedules 15 potential lease sales in six planning areas with the greatest resource
potential, including more than 75 percent of the estimated undiscovered,
technically recoverable oil and gas resources in Federal offshore waters. DOI is
currently developing the next schedule (2017 – 2022) of potential offshore oil and
gas lease sales in Federal waters. Per statute and consistent with previous efforts,
BOEM will need to evaluate all of the OCS planning areas during this first stage.
In doing so, BOEM will need to seek a wide array of input, including information
on the economic, social, and environmental values of all OCS resources, as well
as the potential impact of oil and gas exploration and development on other
resource values of the OCS and the marine, coastal, and human environments.

Hiring and Retention
GAO identified DOI challenges in hiring and retaining staff with key skills
needed to manage and oversee oil and gas operations on Federal leases. DOI has
noted two major factors that contribute to these challenges at the three bureaus
(BLM, BOEM, and BSEE) that manage oil and gas activities—the first is lower
salaries, and the second is a slow hiring process, when compared with similar
positions in private industry. The three bureaus have all reported ongoing
difficulties filling vacancies, particularly for petroleum engineers and geologists.

Although DOI and the three bureaus have taken some actions to address their
hiring and retention challenges, they have not fully used their existing authorities
to supplement salaries or collect and analyze hiring data to identify the causes of
delays in the hiring process. BLM, BOEM, and BSEE officials have noted that
recruitment, relocation, and retention incentives are key options to help hire and
retain staff, but use of these incentives to attract and retain petroleum engineers
and inspectors has been limited. Bureau officials have cited steps they have taken
to address vacancies in key positions, such as borrowing staff from other offices
or using overtime, but these solutions are not sustainable. Through the
Consolidated Appropriations Act of 2012 (Pub. L. No. 112-74), Congress
provided the authority for BOEM and BSEE to establish higher pay rates for
specific employees. This authority has been extended through FY 2015 under the
Consolidated Appropriations Act of 2014 (Pub. L. No. 113-76), and higher pay
rates have been applied to 142 BOEM employees.

The FY 2012 attrition rate for petroleum engineers at BLM was over 20 percent,
or more than double the average Federal attrition rate of 9.1 percent. However, the
attrition rate for other key oil and gas staff during FY 2012 was lower than the
Federal average. Nonetheless, attrition remains a concern because some BLM
field offices have only a few employees in any given position, and a single
separation could significantly affect operations. DOI records also show that the


                                                                                       7
average time required to hire petroleum engineers and inspectors exceeds
120 calendar days—much longer than OPM’s target of 80 calendar days—much
longer than OPM’s target of 80 calendar days.

In March 2014, BLM issued guidance on the implementation of special pay rates
for all petroleum engineers and petroleum engineering technicians in General
Schedule grades 5 through 14 working in the oil and gas production program.
In an effort to ensure BLM’s competitiveness to recruit and retain qualified
petroleum engineers and petroleum engineering technicians, BLM established
mandatory recruitment and relocation incentives in May 2014. According to
BLM, BOEM, and BSEE officials, hiring and retention challenges have made it
more difficult to carry out oversight activities in some field offices. For example,
many BLM and BSEE officials surveyed by GAO reported that vacancies have
resulted in reduced numbers of inspections conducted.

Retention is significant concern within DOI, and the hiring and retention issues
have direct impact on DOI’s ability to collect its share of revenue from oil and gas
produced on Federal lands, and to provide oversight and management of oil and
gas operations on Federal lands and waters.

Renewable Energy
The President’s Climate Action Plan directs DOI by 2020 to permit 20,000
megawatts of renewable energy on public lands, or enough to power more than
6 million homes. Toward this end, since 2009, DOI has approved 48 solar, wind,
and geothermal utility-scale projects on public lands, including associated
transmission corridors and infrastructure to connect to established power grids.
When built, these projects add up to more than 13,300 megawatts—enough
energy to power nearly 4.62 million homes and support more than 19,900
construction and operations jobs. To date, BOEM has awarded five commercial
wind energy leases off the Atlantic coast: two noncompetitive leases (Cape Wind
in Nantucket Sound off Massachusetts and an area off Delaware) and three
competitive leases (two offshore Massachusetts-Rhode Island and another
offshore Virginia). Competitive lease sales have generated about $4.7 million in
bonus revenue for about 277,550 acres in Federal waters.

In August 2014, BOEM offered two additional leases covering 80,000 acres
located off the Maryland coast for commercial wind energy development in a
competitive lease sale generating additional high bids of $8.7 million. BOEM is
expected to hold additional competitive auctions for wind energy areas for
offshore Massachusetts and New Jersey in the coming year. These areas cover
742,000 acres and nearly 344,000 acres, respectively.

As with oil and gas, issues resulting from delays in permitting, as well as the lack
of qualified personnel with offshore renewable energy experience needed for
inspection and enforcement programs, will likely have the potential to adversely
affect both industry and Government efforts. Combined with environmental


                                                                                       8
impact issues that may also impede the development of renewable resources,
the potential exists for not only lost revenues but also lost energy production. By
addressing these issues, DOI stands to recoup lost revenues and take the lead in
renewable energy.

Hydraulic Fracturing on Federal and Indian Lands
Hydraulic fracturing (“fracking”), directional drilling, and other advanced
technologies have allowed the production of oil and gas from rock formations that
previously could not be developed.

Approximately 90 percent of wells drilled on Federal and Indian lands use
hydraulic fracturing, but BLM’s current regulations governing these operations on
public lands are more than 30 years old and were not written to address modern
hydraulic fracturing activities. In 2013, BLM released a revised proposed rule
designed to modernize its management of hydraulic fracturing operations and help
establish baseline environmental safeguards for these operations across all public
and Indian lands. In August 2014, DOI sent its final rulemaking package to the
Office of Management and Budget (OMB). GAO released a report in June 2014 6
indicating that existing regulations do not protect against contamination that could
occur after earthquakes, which is increasingly a concern at injection wells and
fracking sites in Ohio and the West (as seismic activity may increase following
hydraulic fracturing). As pressure increases to use Federal and Indian lands, DOI
must take appropriate steps to ensure that environmental concerns are adequately
addressed and appropriately monitored.




6
 GAO Report GAO-14-555: “EPA Program to Protect Underground Sources from Injection of
Fluids Associated with Oil and Gas Production Needs Improvement.” Published June 27, 2014.


                                                                                             9
Climate Change
In its 2014 Strategic Plan, 7 GAO identified climate change as an emerging area of
potentially high risk. Climate change risks to environmental and economic
systems—including agriculture, infrastructure, ecosystems, and human health—
present a significant issue for the United States.

DOI’s responsibilities for management of lands, waters, and wildlife provide
firsthand experience of the impacts of a rapidly changing climate. Impacts
observed by Federal resource managers include drought, severe flooding,
increased fire seasons, interrupted pollination of crops, changes in wildlife and
prey behavior, warmer rivers and streams, and rise in sea level. The scope and
magnitude of the effects of climate change, combined with the difficulty in
developing response strategies, have continued to pose significant management
challenges. The lands and resources managed by DOI face increasingly complex
and widespread environmental challenges associated with climate change.

Climate change is a complex, cross-cutting issue that affects virtually every facet
of DOI. Secretarial Order No. 3289 (issued in 2009 by then-Secretary Salazar)
established a Department-wide approach to understanding climate change and
responding effectively to its impacts on our country’s natural resources and public
and tribal lands.

Summary of OIG Work
FY 2014 projects under climate change included review of Climate Science
Center grants management and sustainable-buildings goals.

Climate Science Center Grants Management
Climate Science Centers (CSCs) and Landscape Conservation Cooperatives
(LCCs) form the cornerstone of DOI’s climate-change-response strategy
established under Secretarial Order No. 3289. DOI has established and uses
8 CSCs and 22 LCCs as vehicles through which to address climate change and
other ecological stresses.

In FY 2014, OIG began an audit of grants management at the U.S. Geological
Survey’s (USGS) CSCs. Pursuant to Secretarial Order No. 3289 and the
Consolidated Appropriations Act of 2008 (Pub. L. No. 110-161), CSCs are
regional partnerships that seek to provide climate change impact data and analysis
geared to the needs of fish and wildlife managers. USGS uses grant and
cooperative agreement money to fund hosting agreements, staff, and climate-
focused scientific research.



7
 GAO Report GAO-14-1SP: “GAO Strategic Plan: Serving the Congress and the Nation 2014 –
2019.” Published February 28, 2014.


                                                                                      10
Using findings from last year’s audit of LCCs, OIG applied similar strategies in
the CSC grants management review. Thus far, we have issued two Notices of
Potential Findings and Recommendations, with which USGS has concurred.
We anticipate completing the review by early FY 2015.

DOI’s Sustainable-Buildings Initiative
In October 2009, the President issued Executive Order No. 13514, “Federal
Leadership in Environmental, Energy, and Economic Performance,” which
identifies greenhouse gas reduction as a Federal priority and requires agencies to
implement “high performance sustainable Federal building design, construction,
operation and management, maintenance, and deconstruction.” The Executive
order specifically requires the head of each agency to ensure that at least
15 percent of the agency’s existing buildings that are over 5,000 gross square feet
meet 100 percent of an agreed-upon set of guiding principles by FY 2015.

OIG initiated a review of DOI’s sustainable-buildings initiative to determine
whether the Department has implemented sustainable-buildings principles for
new, existing, and leased Federal buildings. During our review, we learned that
DOI had implemented a two-phase strategy for assessing its properties and
meeting the FY 2015 sustainable-buildings goal of 15 percent. DOI had already
begun the first phase when the strategy was rejected by OMB because it did not
capture the “spirit and intent” of Executive Order No. 13514. DOI never launched
the second phase of the strategy. We also learned that DOI will be participating in
a pilot program that will help agencies meet the goals of the initiative. Based on
these circumstances, we elected to postpone our evaluation until the pilot
program’s methodologies are established and we can assess its impact.

OIG identified two areas that present challenges to DOI in meeting the intent of
Executive Order No. 13514: (1) prohibitive costs associated with making DOI
buildings green—an estimated total cost of $561 million for building assessments
and upgrades, and (2) stringent guiding principles that do not accommodate the
buildings in DOI’s inventory—approximately 23 percent of DOI’s properties are
historical and cannot fully comply with the guiding principles for sustainable
buildings. DOI has increased the sustainability of buildings in its inventory,
however—for example, some buildings that were once only 40 percent
sustainable are now 80, 90, or even 96 percent sustainable—yet these buildings
are not considered part of the percentage of sustainable buildings because they do
not meet 100 percent of the guiding principles’ requirements.

Looking Ahead
Landscape Conservation Cooperatives
Threats posed by climate change do not affect isolated places or individual
species, but entire landscapes and multiple resources simultaneously. One of the
Secretary’s priorities is building a greater understanding of ecological processes at
the landscape level, and she has challenged the Department to work with partners
to elevate this understanding nationally. The U.S. Fish and Wildlife Service


                                                                                   11
(FWS) has taken the lead to bring Federal agencies together with partners to
undertake this task through LCCs.

FWS has worked with a diverse suite of partners to establish a national LCC
network. LCCs address a full range of conservation challenges across the Nation
as they work collaboratively with other Federal agencies, State agencies, tribes,
industry, nongovernmental organizations (NGOs), academic institutions, and the
conservation community at large. Without duplicating the effort of existing
partnerships, LCCs promote efficient and effective targeting of Federal dollars to
obtain and analyze the science necessary for FWS and its partners to develop
landscape-scale conservation models protecting fish, wildlife, plants, and their
habitats. This collaborative effort also enhances FWS’ ability to collect
information to improve or augment many of the Service’s ongoing conservation
efforts, such as endangered species recovery plans, national wildlife refuge
comprehensive conservation plans, joint ventures, fish passage, and habitat
restoration.

LCCs face two main efforts going forward. First, concerns that LCCs duplicate
science effort or detract funding from long-established FWS programs (such as
fish hatcheries, refuges, migratory birds, or State grants), present a decision-
making challenge at several levels. Second, initial appropriations to DOI for the
LCCs were made in FY 2010 and subsequently have decreased each year since
FY 2012, making it difficult to develop and sustain conservation partnerships. To
date, LCC funding has been zeroed out in the last three House budgets, including
for FY 2015. This has caused LCC partners (other Federal agencies, States, tribes,
and NGOs) to reconsider or delay their participation and commitment to
contributing support.

Appalachian Regional Reforestation
Biological carbon storage—also known as carbon sequestration—is the process
by which carbon dioxide (CO2) is removed from the atmosphere and stored as
carbon in vegetation, soils, and sediment. Forests account for more than
80 percent of the estimated carbon sequestered in the Eastern United States
annually, compared with other plant life like grasslands, according to the USGS
National Biological Carbon Assessment.

Under the Surface Mining Control and Reclamation Act of 1977 (Pub. L. No. 95-
87), mined land needs to be returned to the use it was capable of supporting
before mining, or a higher or better use. Almost all of the land mined in
Appalachia and much of the land mined in other naturally forested areas of the
country was deforested at the time it was mined. An agricultural use of hayland
and pasture is considered an equivalent land use, and therefore allowable under
the law for reclamation in these regions. Operators have generally turned mined
lands into hayland and pasture because the practice fits with regulators’ desire to
turn everything “green” as quickly as possible and fulfills the requirements of the
law. While conversion to hayland and pasture is legal, it is not conducive to forest


                                                                                  12
growth. Also, lands reclaimed as hayland and pasture sequester less CO2 than
forests, contribute to flooding, affect species dependent on forests for food and
cover, and do not provide the temperature-moderating influence of forests.

To combat deforestation on reclaimed land, the Office of Surface Mining
Reclamation and Enforcement participates in the Appalachian Regional
Reforestation Initiative (ARRI), a coalition of groups (including citizens, the coal
industry, and Federal and State government agencies) dedicated to restoring
forests on coal-mined lands in the Eastern United States. Over time and with
advanced planting techniques, ARRI should promote new hardwood growth on
reclaimed lands that will transition mined land into carbon sinks (where CO2 is
stored), mitigating CO2 in the atmosphere. Through this public-private
partnership, successful reestablishment of hardwood forests will provide a
renewable, sustainable multi-use resource that should create economic
opportunities while enhancing the local and global environments. Since the start
of ARRI in 2004, approximately 85 million trees have been planted and
approximately 125,000 acres restored to forests on newly mined land.

Wildland Fire Suppression and Management
Over the past three decades, fire season lengths have increased by 60 – 80 days
and annual acreage burned has more than doubled to over 7 million acres. In
addition, growing housing development in forests has put more people and houses
in harm’s way and made firefighting efforts more expensive.

In 2014, the Administration’s National Cohesive Wildland Fire Management
Strategy—developed by Federal, State, tribal, and local community partners, and
public stakeholders—outlined new approaches to coordinate and integrate efforts
to restore and maintain healthy landscapes, prepare communities for fire season,
and better address the Nation’s wildland fire threats.

The strategy includes both national strategic planning and regionally specific
assessment and risk analysis to address such factors as climate change, increasing
community sprawl, and pests and diseases affecting forest health across
landscapes, regardless of ownership. Approaches include adopting preventive
measures, such as fuels thinning and controlled burns; promoting effective
municipal, county, and State building and zoning codes and ordinances; ensuring
that watersheds and transportation and utility corridors are part of future
management plans; and determining how organizations can best work together to
reduce and manage human-caused ignitions.

The impacts of a changing climate on wildland fire risk management are
observable in the form of extended drought periods, longer fire seasons, timber
stands that are susceptible to insect infestation and mortality, and greater rates of
fire spread, all of which can contribute to larger and more complex and costly
incidents. These impacts challenge the fire community to provide more annual
coverage and response capability for a longer period of time, as well as maintain a


                                                                                    13
high initial attack success rate on faster growing fires, all while managing
incidents of unprecedented size and complexity.

With the passage of the Federal Land Assistance Management and Enhancement
(FLAME) Act in 2009, both the Forest Service and DOI are required to produce
forecasts of anticipated wildland fire suppression costs three times during each
fiscal year (in March, May, and July). The forecast for September 2014 provides a
median cost of $356 million. Drought conditions in the West, especially in
California, combine with other factors to predict a dangerous fire season. Last
year, 34 wildland firefighters died in the line of duty as fire burned 4.1 million
acres and destroyed more than 1,000 homes across the country. If the fire season
is as costly as the forecast predicts, the Forest Service and DOI will be forced to
take funding out of other critical programs that increase the long-term resistance
of national forests and public lands to wildfire. Both the U.S. Department of
Agriculture and DOI have had to divert funds from other programs to fund
firefighting efforts in 6 of the past 12 years. This financial balancing act is a major
hindrance to departmental function.

Tribal Impact
Climate change threatens the culture and way of life of American Indian and
Alaska Native tribes, potentially affecting tribal lands, housing, and infrastructure,
as well as access to traditional foods and adequate water. Broadly, changing
ecosystems and the loss of natural resources present a high risk for tribes’ unique
rights, cultures, and economies.

Because of the complexity of the climate-ecosystem relationship and limited
applied research and/or management recommendations, trust land managers will
need to stay abreast of climate adaptation research and best practices, and
combine that with local knowledge and traditional ecological knowledge to create
climate-resilient projects and landscapes. The Tribal Climate Resilience Program,
announced in July 2014, is part of a new initiative to address the impacts of
climate change already affecting tribal communities. The program will provide
direct support through climate adaptation grants that will be awarded in four
categories: development and delivery of climate adaptation training; adaptation
planning, vulnerability assessments, and monitoring; capacity-building through
travel support for climate change training, technical sessions, and cooperative
management forums; and travel support for participation in ocean and coastal
planning.

The Bureau of Indian Affairs (BIA) received a funding spike in FY 2014 from
$1 million to $8 million for climate impact planning, and $2 million for ocean and
coastal management planning. A potential tenfold increase in funding presents
new challenges, ranging from acquisition and grant management issues and fraud
prevention to duplication of scientific effort. BIA must prioritize financial
oversight for these appropriations to ensure proper allocation of resources.




                                                                                    14
Budget and Management Concerns
The continuing dilemma of uncertain budget timing, plus declining Federal
budgets and nonmonetary resources, will challenge DOI to make tough choices
about priority issues. Climate change is a new priority that has not traditionally
been part of most DOI line items, but is affecting a remarkable variety of
Department responsibilities now and into the future. As such, building climate-
related expertise and taking action to mitigate and adapt to climate change will
have to compete with existing priorities for resources.

DOI oversees 20 percent of the Nation’s lands. Climate change does not affect
each region equally, according to the 2014 Risky Business Report 8; for example,
as weather patterns change across the country, some lands will experience sea-
level rise, and others will see sea level fall. Some lands will see a reduction in
precipitation; others will see more intense storms. Given this diversity of change,
an informed, multifaceted approach is required to manage DOI lands effectively.

A warming climate requires proactive management. DOI must consider that the
environment of 2015 will not be the environment of 2050. Land maintenance,
buildings, and roads standards must envision a future of higher energy demand
and chaotic weather that will occur on a more frequent basis, and the related
impacts of such weather on DOI investments. On lands with outdoor recreation,
new standards of informing the public about heat risks should be considered, as
many areas of the country are likely to experience a significant spike in extremely
hot days (over 95 °F).

For bureaus that manage extensive natural resources and facilities, climate change
is complicating decision making about operations, maintenance, and public
access, by adding new uncertainties to existing mandates and constraints.
Regional data, tools, and coordination with climate scientists will be necessary to
help DOI’s land managers incorporate climate change into their planning
processes. DOI should also develop approaches to information management and
sharing that ensure that all climate data and information are widely available to all
bureaus. Finally, DOI should continue to highlight climate activities that affect
natural resources in a context that is relevant to stakeholders and other DOI
constituencies.

DOI continues to face the challenge of providing relevant scientific information to
land, water, and wildlife managers on a regular basis. DOI also must continue to
work effectively and efficiently across landscapes and watersheds with other
Federal agencies, States, local and tribal governments, and private partners to
8
 “Risky Business: The Economic Risks of Climate Change in the United States”
(http://riskybusiness.org/) uses a standard risk-assessment approach to determine the range of
potential consequences for each region of the country—as well as for selected sectors of the
economy—if we continue on our current path. The research focused on the clearest and most
economically significant of these risks: damage to coastal property and infrastructure from rising
sea levels and increased storm surge, climate-driven changes in agricultural production and energy
demand, and the impact of higher temperatures on labor productivity and public health.


                                                                                               15
formulate shared understandings and common strategies for land and resource
managers to adapt to the challenges and ensure the resilience of our Nation’s
resources. In doing so, DOI must ensure that taxpayer dollars are wisely spent and
closely monitored to confirm that funds are used appropriately. While DOI
climate change activities are funded at the bureau level, the tracking of how these
dollars are being spent remains a decentralized activity.

Maintaining consistent engagement across all bureaus in DOI climate change
activities remains a continual challenge, given the highly decentralized nature of
many of the bureaus. Coordination of the numerous climate activities across DOI
will take an investment in mechanisms to ensure that bureaus continue to avoid
duplication of effort and are sharing scientific resources in planning and decision
making. DOI should continue to engage the bureaus at both executive and staff
levels to ensure that current climate planning is coordinated and implementation
of science, monitoring, and management activities is consistent across bureaus.




                                                                                 16
Water Programs
DOI is the largest supplier and manager of water in the 17 Western States and
delivers irrigation to 31 million people, 1 out of every 5 Western farmers, and
10 million acres of farmland. Adequate water supplies are an essential element in
human survival, ecosystem health, energy production, and economic
sustainability.

The Bureau of Reclamation (USBR) plays a crucial role in helping the Nation
manage and sustain the current supply of fresh water in rivers, lakes, aquifers, and
other sources and preserve a healthy ecosystem to ensure the future supply. USBR
has constructed more than 600 dams and reservoirs. It is the largest wholesaler of
water in the country and is the second largest producer of hydroelectric power in
the Western United States. Its 53 power plants provide more than 40 billion
kilowatt hours annually, generating nearly a billion dollars in power revenues, and
produce enough electricity to serve 3.5 million homes.

Summary of OIG Work
FY 2014 projects related to water management examined several financial
assistance programs associated with the WaterSMART program.

Sustainable Water Management Programs and Activities
USBR’s WaterSMART (Sustain and Manage America’s Resources for
Tomorrow) Program provides scientific knowledge and financial support to help
water management agencies efficiently balance current water supplies with the
demand to develop new ones. USBR is DOI’s main water management agency,
and the WaterSMART Program is USBR’s primary method for meeting the
Department’s priority goal for water conservation.

We evaluated three financial assistance programs under the WaterSMART
Program: Water and Energy Efficiency Grants, Water Conservation Field Service
Program grants, and cooperative agreements under the Title XVI Water
Reclamation and Reuse program. We found that, overall, USBR manages these
financial assistance programs well, but that it should take additional steps to
improve management of WaterSMART to ensure transparency and fairness in its
financial assistance programs. We offered six recommendations that will help
USBR improve its management of the program.

Looking Ahead
Aging Infrastructure and Workforce
In an era of reduced budgets, financing repairs to aging infrastructure may well be
one of the most critical risks involved in the procurement and management of
water within the next 5 years. Similar to what the energy field is experiencing and
what the Government Accountability Office (GAO) noted for oil and gas
management, DOI is also facing an aging water workforce, with projected losses


                                                                                 17
in both managerial and water plant worker positions. Losses in the workforce will
also result in losses in corporate knowledge and experience that DOI will need to
address in order to mitigate negative impacts. Not unlike the private sector, DOI
will face challenges from aging facilities and infrastructure. Recent studies
suggest that approximately $100 – $300 million will be needed to modernize and
upgrade water facilities and related infrastructures across both the public and
private sectors. 9 Deferring maintenance on an aging infrastructure will increase
the probability of negative impacts and only contribute further to the rising cost of
repairs.

An aging workforce and infrastructure, combined with U.S. population growth
and regional migration to the Southwest, will continue to be significant challenges
for DOI with regard to managing water issues. The Consolidated Appropriations
Act of 2014 provides USBR with $954 million for its Water and Related
Resources operating account. Congress included $44.289 million in additional
funds above the budget request for Water and Related Resources studies, projects,
and activities, including funding for rural water construction; facilities operation,
maintenance, and rehabilitation; water conservation and delivery; and
environmental restoration and compliance.

Depletion of Groundwater Resources
A recent study funded by the National Aeronautics and Space Administration and
the University of California 10 has concluded that groundwater losses from the
Colorado River basin alone appear massive enough to challenge long-term water
supplies for the Southwest region of the United States. Since 2004 the Colorado
River basin has lost 53 million acre-feet, or 17 trillion gallons of water. This
combined with a 127 percent increase in water use has further decreased water
availability. DOI needs to be prepared to mitigate the negative consequences
associated with the expansion of water needs, particularly in the Western States.

Impaired Water Quality Associated With Particular Land Uses
More than 50 percent of the people in the United States use groundwater for
drinking and other household uses; however, the largest use of groundwater is to
irrigate crops. Groundwater is “recharged” from rain water and snowmelt or from
water that leaks through the bottom of some lakes and rivers. Groundwater also
can be recharged when water-supply systems (pipelines and canals) leak and
when crops are irrigated with more water than the plants can use.

The demands for water for use in crop irrigation and to meet the needs of growing
cities and communities, energy production, and the environment will likely
continue to grow. An increasing sense of competition for limited water resources

9
  WeiserMazars LLP, “2014 U.S. Water Industry Outlook,”
http://weisermazars.com/2014WaterOutlook
10
   Castle, Thomas, Reager, Rodell, Swenson, & Famiglietti. (2014). Groundwater Depletion
During Drought Threatens Future Water Security of the Colorado River Basin. Geophysical
Research Letters, 41.


                                                                                           18
makes it apparent that there is a need for information and decision support tools to
aid both water and land managers. Regions such as the West and Southeast will
likely continue to face the possibility of increasing vulnerability to drought.
Consequently, traditional water management approaches by themselves will no
longer meet today’s needs, and DOI will need to be progressive in its approach to
mitigate the impacts of impaired water quality associated with surface
contamination due to agricultural runoff or to energy production through oil and
gas extraction.




                                                                                 19
Responsibility to American Indians
and Insular Areas
The Department’s mission includes fulfilling trust responsibilities and special
commitments to American Indians, Alaska Natives, and affiliated island
communities.

Responsibility to American Indians is consistently a top management challenge
for DOI. Through BIA and the Bureau of Indian Education (BIE), DOI works
with more than 500 federally recognized Indian tribes, has trust responsibilities
for more than 100 million surface and subsurface acres of land belonging to
Indian tribes and individuals, and provides education services to approximately
40,000 Indian children in tribal schools and dormitories. Some of the Indian
Country programs managed by DOI include Indian Trust for Lands and Funds,
Social Services, and Justice Services.

Regarding the Insular Areas, DOI has administrative responsibility for
coordinating Federal policy in the territories of American Samoa, the
Commonwealth of the Northern Mariana Islands, Guam, and the U.S. Virgin
Islands. DOI also administers and oversees Federal assistance provided under the
Compacts of Free Association for three sovereign nations: the Federated States of
Micronesia, the Republic of the Marshall Islands, and the Republic of Palau. DOI
coordinates with the U.S. Department of State and other Federal agencies to
promote economic development and budgetary self-reliance in these nations.

DOI manages its responsibility to the Insular Areas primarily through the Office
of Insular Affairs (OIA). OIA works to improve the financial management
practices of the Insular Area governments and to increase economic development
opportunities through financial and technical assistance. OIA annually funds
Insular Area government programs that focus on education, health care, and
infrastructure improvement.

Summary of OIG Work—Indian Affairs
FY 2014 projects related to Indian affairs included examination of property
leasing, recordkeeping, education services, and investigations that involve Indian
Country.

Real Property Leases
OIG conducted an inspection of BIA’s leasing program after the General Services
Administration’s (GSA) Public Buildings Service found that the Bureau had not
followed GSA’s leasing requirements; it had leased property without approval and
exceeded square footage limits. GSA informed BIA that it could not exercise its
delegation of authority until the Bureau submitted a corrective action plan
approved by GSA.


                                                                                    20
Our inspection confirmed GSA’s findings. OIG sampled 14 BIA leases identified
in the GSA report and found issues with all of them. We found that BIA had not
followed GSA’s leasing requirements and that BIA had approved more than
$32.7 million in lease agreements that exceeded GSA square footage and
purchase approval limits. Also, BIA’s inability to accurately report all lease data
back to GSA made it impossible for GSA to analyze post-lease performance data
for the BIA leases we reviewed. These issues resulted from noncompliance with
GSA guidelines, as well as insufficient BIA guidance and inadequate training.
We provided three recommendations to help BIA resolve this issue by complying
with GSA guidance, updating its own policies, and developing appropriate
training.

Records Management
An inspection of three BIA agency offices found recordkeeping practices for oil
and gas documents and files at two of them (the Southern Ute and Fort Berthold
Agencies) to be flawed. OIG reviewed recordkeeping practices at the Southern
Ute, Fort Berthold, and Uintah & Ouray Agencies. The three agencies were
selected because of their locations, intensive oil and gas development, and large
numbers of application for permit to drill (APD) submissions. We identified no
records management issues at the Uintah & Ouray Agency.

Royalty payments for oil and gas produced from Indian lands are held in trust,
invested, and disbursed at the direction of the applicable tribe or individual
mineral owner. To ensure that royalties are correctly paid, BIA agency offices
must maintain an accurate system of property records showing the location and
owner of each oil and gas lease, individual well data, and rights-of-way. We made
three recommendations to BIA to help improve recordkeeping at BIA agency
offices.

Indian Education
BIE’s mission is to provide quality education opportunities from early childhood
through life in accordance with a tribe’s needs for cultural and economic well-
being, in keeping with the wide diversity of Indian tribes and Alaska Native
villages as distinct cultural and governmental entities. More than 180 schools in
23 States are either operated directly by BIE or receive BIE program funds.

OIG is currently reviewing a selection of Indian schools across the country,
looking at three main areas: (1) prevention of school violence; (2) condition of
school facilities; and (3) academic achievement. We are following up on the
findings of our prior work in the prevention of school violence, published in 2008
and 2010, by looking at physical security, emergency preparedness, and related
training. We are also examining school facilities to assess current conditions and
to review BIA’s, BIE’s, and tribes’ ability to assure a physical environment that is
safe and conducive to learning. Finally, we are reviewing academic achievement
and how it is evaluated in Indian Country, driven by concerns over low graduation




                                                                                 21
rates and a reported “achievement gap” as compared with students at public
schools generally.

Bureau of Indian Affairs Investigations
Approximately one-fifth of OIG investigations involve Indian Country. These
investigations regularly revealed that DOI-funded programs and operations in
Indian Country are extremely susceptible to fraud, waste, mismanagement, and
abuse due to nepotism, unqualified employees, failure to follow policies and
procedures, lack of internal controls, lack of transparency, lack of oversight, and
fear of reprisal for reporting wrongdoing. The aforementioned have been
challenges to Indian Country in the past and are expected to continue as
challenges into the future.

Past OIG investigations have led to indictments for bribery, fraud, and other
charges related to misuse of Federal funds meant for Indian education and other
tribal programs. For example, one past OIG investigation showed that even
though BIA quit providing funds directly to South Dakota’s Crow Creek Sioux
Tribe because it was classified as high risk, tribal council members (who also
served on the Crow Creek Tribal School’s school board) participated in a scheme
through which a contractor paid them thousands of dollars in bribes to secure
tribal business. The tribe received several million dollars annually from BIE for
educational programs and operations and additional funds from BIA for school
facility construction projects. When it was discovered that the tribe’s chairman
assisted OIG as an informant in the case, other council members retaliated against
the chairman and suspended him from all of his official duties.

Recently, an innovative investigative approach called the Guardians Project, led
by OIG’s Office of Investigations and Montana’s U.S. Attorney’s Office, with
substantial assistance provided by OIG’s Office of Audits, Inspections, and
Evaluations, led to numerous indictments and convictions in Indian Country.
As one example outcome, the project has resulted in the prosecution of a former
State representative, a tribal leader, and others involved in siphoning off funds
from a $33 million water project on Montana’s Rocky Boy Indian Reservation.

In both cases cited above, OIG initiated and/or successfully completed suspension
and debarment action against the offending tribal officials and contractors.

Looking Ahead—Indian Affairs
Land Buy-Back Program
Across Indian Country, more than 245,000 owners of 3 million fractionated
interests, spanning about 150 Indian reservations, are eligible to participate in the
Land Buy-Back Program. The program was created to implement the land
consolidation component of the Cobell Settlement, which provided $1.9 billion to
consolidate fractionated land interests across Indian Country. Land fractionation
is a serious problem throughout Indian Country. As lands are passed down
through generations, they gain more owners. Many tracts now have hundreds and


                                                                                   22
even thousands of individual owners. Because obtaining landowner consensus is
difficult, the lands often lie idle and cannot be used for any beneficial purpose.
Managing this tremendously complex situation is costly for DOI and can be
frustrating for individual owners, who may consider their ownership proportions
so diminished as to be worthless.

To date, the Land Buy-Back Program has made more than 41,000 purchase offers
to owners of fractionated interests, successfully concluded transactions worth
more than $144 million, and restored the equivalent of more than 280,000 acres of
land to tribal ownership. As part of the settlement, the Land Buy-Back Program
continues to contribute to the Cobell Education Scholarship Fund, managed by the
American Indian College Fund. Contributions to the scholarship fund have so far
exceeded $4 million.

DOI recently announced 21 locations where land consolidation activities such as
planning, outreach, mapping, mineral evaluations, appraisals, or acquisitions are
expected to take place through the end of 2015. These communities represent
more than half of all the fractional interests and unique owners across Indian
Country.

Indian Education
In June 2014, the Secretary issued Secretarial Order No. 3334 to transform BIE
and to ensure that all students attending BIE-funded schools receive a world-class
education that is delivered to them by tribes.

BIE faces significant challenges in providing quality education, including
attracting effective teachers to BIE schools in remote locations, complying with
academic standards in 23 different States, resource constraints, and distribution of
administrative and decision-making duties across multiple locations. The
American Indian Education Study Group, convened in 2013 to diagnose the
systemic issues within BIE-funded schools, found that only 1 out of 4 BIE-funded
schools met the State-defined proficiency standards, and that students in BIE
schools consistently perform below American Indian students in public schools on
national and State assessments. In one study of fourth graders, BIE students on
average scored 22 points lower for reading and 14 points lower for math than
Indian students attending public schools.

The American Indian Education Study Group also concluded that significant
organizational changes are necessary to provide tribal communities with the
resources and support needed to operate high-performing schools and to remove
institutional obstacles that hamper student achievement. Federal American Indian
education has been handed over to tribes in approximately two-thirds of BIE
schools; however, BIE has not been adequately restructured to implement its new
primary role in supporting tribal programs. As tribes move away from having BIE
operate their schools and begin to assume that responsibility, BIE has spent a




                                                                                 23
significant amount of time using its infrastructure to absorb the shifts in work
responsibilities.

Secretarial Order No. 3334 outlines a two-phase process to restructure and
redesign BIE over the 2014 – 2015 and 2015 – 2016 school years. Vital to long-
term success in BIE’s education programs are strong communities and access to
adequate social services. In its work, BIE must consider the spiritual, mental,
physical, and cultural aspects of the individual within his or her family and tribal
or village context. Many Indian students served by BIE come from remotely
located, rural communities characterized by poorly developed local economies,
high rates of unemployment, and low incomes. Additionally, many of the
communities served by BIE schools exhibit above-average rates of crime,
households where English is a second language, and below-average literacy rates.
As a consequence of these community and home environments, many students
enter school with inadequate skill sets. Social services are provided, or funded by,
BIA; and a strong partnership between BIE, BIA, and others is necessary for
many students to overcome personal and family difficulties and get the most
benefit from the educational opportunities afforded them.

Infrastructure Projects for Sustainable Water Supply
DOI is taking steps to address the water needs of American Indians relying on a
rapidly depleting groundwater supply. In April 2014, DOI announced that USBR
had awarded a $19.6 million construction contract to build the Tohlakai Pumping
Plant, the first pumping plant for the Navajo-Gallup Water Supply Project. This
project is the cornerstone of the historic Navajo Nation Water Rights Settlement
Agreement in the San Juan River Basin in New Mexico, signed by DOI, the
Navajo Nation, and the State of New Mexico in December 2010, representing a
significant milestone in fulfilling long-outstanding water rights claims of the
Navajo Nation while protecting existing water uses and providing for future
growth. Project participants also include the Jicarilla Apache Nation, the City of
Gallup, BIA, and the Indian Health Service.

Impact of Climate Change
Tribal communities are vulnerable to the impacts of climate change, including
severe droughts, floods, wildfires, and snowstorms. Federal agencies recently
assisted the Quinault Indian Nation, whose Lower Village seawall was breached
by a storm surge, and the Quileute Nation, which had to relocate to higher ground
to move out of a tsunami zone.

BIA funded 19 climate change tribal grants in FY 2013 for cooperative
vulnerability assessments of culturally and economically important Northwest fish
and wildlife. Direct tribal funding for climate impact planning in FY 2014 has
increased to $8 million and includes new programs in cooperative tribal ocean and
coastal planning efforts.




                                                                                   24
Collaborative Strategies for Improved Services
Using innovative and collaborative strategies such as those noted above, plus
proactive steps such as fraud awareness briefings for our customers and in
conjunction with traditional auditing, evaluating, and investigating, can have
positive impact on the future of Indian Country. American Indians would receive
improved services, whether delivered by DOI or tribes, and students enrolled in
BIE schools would receive a strong education that allows them to develop the
knowledge, skills, and abilities that will prepare them for their future as
employees, community members, parents, and leaders in Indian Country.

Summary of OIG Work—Insular Areas
FY 2014 projects related to Insular Areas included review of programs in the
U.S. Virgin Islands and Guam.

U.S. Virgin Islands’ Department of Human Services
In June 2014 we published results of a review conducted in conjunction with the
U.S. Department of Health and Human Services (HHS) to determine whether the
U.S. Virgin Islands’ Department of Human Services (DHS) ensured that the
neediest children received priority when filling Head Start enrollment slots.
(The joint review was ideal because DOI has cognizance over Federal funds
expended in the Virgin Islands and HHS has experience auditing Head Start
programs.) Children are automatically eligible for enrollment in the Head Start
program if they are homeless, in foster care, or a recipient of public assistance.
Grantees are required to fill 10 percent of their funded enrollment with children
with disabilities who need special education and related services. Remaining slots
are filled with children who are eligible based on their family’s income and who
have been determined to have the greatest need for services based on criteria
established by each grantee.

DHS provides Head Start services at 24 centers located on the islands of
St. Thomas, St. Croix, and St. John. We could not determine whether the neediest
children in the Virgin Islands received priority when DHS filled Head Start
enrollment slots because DHS (1) entered inaccurate information in the computer
system that it uses to calculate children’s financial eligibility, (2) did not retain
documents used to determine whether enrollees were categorically eligible, and
(3) did not meet the required enrollment level for children with disabilities.
We made three recommendations to help DHS ensure that the neediest children
receive priority when filling Head Start enrollment slots.

Guam Business Privilege Tax
The Government of Guam’s (GovGuam) Department of Revenue and Taxation
(DRT) collects tax revenues, which account for more than half of GovGuam’s
revenue sources. The business privilege tax (BPT) applies to all persons or
contractors on Guam, as well as contractors not located on the island but who
conduct business there, and constitutes about a third of Guam’s annual tax
revenue. The U.S. Department of Defense (DOD) awards hundreds of contracts


                                                                                   25
per year for projects on Guam. With the impending relocation to the island of
more than 6,000 U.S. Marines and their dependents, the number of these contracts
may grow to build the infrastructure necessary to accommodate the increased
U.S. military presence.

We evaluated DRT to determine whether it has a process in place for identifying
and collecting BPT from businesses that have contracts with the Federal
Government, including with DOD for U.S. military projects on Guam. We found
that DRT has an inadequate procedure for identifying contractors subject to the
BPT and for collecting those taxes, and also uses an incomplete list of Federal
contractors when identifying those subject to BPT. Further, DRT does not follow
through with established processes to verify the amount of taxes due and to
collect accordingly. We have reported on GovGuam’s inability to collect taxes in
the past, and we have found that deficiencies at DRT persist. We provided three
recommendations to help improve DRT’s operations.

GovGuam currently operates with an annual fiscal deficit and owes more than
$1 billion in long-term debt. While FYs 2011 and 2012 have seen an increase in
overall total revenue collected for the general fund, GovGuam needs to collect all
taxes to be financially stable to provide programs and services to its constituents.

Guam Memorial Hospital
Access to quality medical and health care services is important for the well-being
of Guam’s residents. Currently, the Guam Memorial Hospital Authority (GMHA)
operates the only public hospital on Guam. We evaluated GMHA’s ability to
provide medical care to the people of Guam and prepare for a potential increase
in population, due in part to the upcoming U.S. military buildup on the island.

We found that GMHA’s negative cash flow is not sufficient and its
reimbursement rates and fee schedules are out of date. GMHA’s financial
situation may jeopardize future medical needs of the citizens of Guam. Unless
GMHA can generate enough revenue, collect appropriate fees, and secure
adequate revenue sources to cover costs for the care of uninsured patients, it will
not be able to sustain the level of services it currently provides or prepare for
future population growth. GMHA’s funding challenges also make it difficult to
develop and maintain the infrastructure necessary to provide medical services.
We made eight recommendations to help improve GMHA operations to increase
quality of medical services and patient safety for the people of Guam.

GMHA is in a fiscal crisis. Unless additional actions are taken to collect needed
revenue and secure funding sources for GMHA, the quality of health care services
for the people of Guam will be at risk.




                                                                                  26
Looking Ahead—Insular Areas
Capacity-Building for Public Accountability
Each Insular Area government has an Office of the Public Auditor (OPA) or
equivalent entity that helps assure the integrity of government operations and
spending. OIG works to enhance the capabilities of OPA staff through training
and technical assistance. These capacity-building efforts are made possible with
funding from OIA. Training topics are tailored to the needs of each supported
jurisdiction, and have included government finance and accounting; risk and
internal controls; procurement data sources; evidence processing; trial
preparation; and other audit and investigative issues. Together with other
programs supported by OIA, our capacity-building activities will continue to
foster local ability to assure public accountability throughout the Insular Areas.

Detecting Fraud, Waste, and Mismanagement
Through our liaison work with OPAs, we find that federally funded programs
remain vulnerable largely as a result of weak procurement systems and poor
integrity in local government personnel. Insular Area governments continue to
possess insufficient resources to adequately prevent and detect fraud, waste, or
mismanagement involving federally and locally funded programs. OPAs face
challenges in competing for and retaining qualified audit and investigative staff
largely due to insufficient budgets.

In an effort to build capacity, we continue our partnership with OIA to deliver
audit and investigation training and technical assistance to the Federated States of
Micronesia, the Republic of Palau, the Republic of the Marshall Islands, and the
Commonwealth of the Northern Mariana Islands. OPAs have a limited travel
budget. Delivering the training to them onsite affords them much-needed
technical skills and continuing professional education credits. We find that such
assistance is mutually beneficial as OPAs help oversee the financial and program
resources and activities of their governments and the integrity of the financial
assistance provided by the United States.




                                                                                     27
Information Technology
As computer technology has advanced, Federal agencies and our Nation’s critical
infrastructures—such as power distribution, water supply, telecommunications,
and emergency services—have become increasingly dependent on computerized
information systems and electronic data to carry out operations and to process,
maintain, and report essential information. The security of these systems and data
is essential to protect national and economic security, as well as public health and
safety. Safeguarding Federal information technology (IT) systems and the systems
that support critical infrastructures (referred to as cyber critical infrastructure
protection, or cyber CIP) is a continuing concern. Federal information security
has been on GAO’s High-Risk List since 1997; in 2003, GAO expanded the
listing to include cyber CIP. Risks to information and communication systems
include insider threats from disaffected or careless employees and business
partners, escalating and emerging threats from around the globe, the ease of
obtaining and using hacking tools, the steady advance in the sophistication of
attack technology, and the emergence of new and more destructive attacks.

DOI relies on complex, interconnected information systems to carry out its daily
operations. Specifically, DOI spends about $1 billion annually on its portfolio of
IT assets, which support programs that protect and manage our Nation’s natural
resources and cultural heritage; provide scientific and other information to the
public about those resources; and meet the Department’s responsibilities to
American Indians, Alaska Natives, and affiliated Insular Areas.

Because of the critical role IT plays at DOI, in FY 2014 OIG established a new
office to conduct audits, evaluations, and inspections of Department IT programs,
initiatives, and related investments. In FY 2014 and beyond, this new office will
conduct a range of IT projects, such as evaluating DOI’s security practices for
protecting mission-critical IT assets, assessing DOI’s cloud-computing initiatives,
and determining whether the Department’s IT governance model results in
effective use of taxpayer resources and promotes sound IT security practices.

Summary of OIG Work
FY 2014 projects related to IT programs and resources examined DOI web
hosting and IT systems at USBR-controlled dam sites.

DOI Web Hosting Services
In early January 2014, the DOI and OIG websites experienced an extended outage
of 7 days. These websites, which are hosted by the National Park Service (NPS),
provide critical information to the general public, and their availability contributes
to the missions of both DOI and OIG. We initiated an inspection to determine the
cause of the outage and to identify whether the length of the recovery was
appropriate. We found multiple reasons and deficiencies that contributed to the
outage, including (1) no written agreements between NPS, DOI, and OIG


                                                                                   28
describing the roles and responsibilities of each entity with regard to web hosting
and contingency planning; (2) NPS information systems that had not been
properly authorized to operate, were outdated, or were missing security
documentation; and (3) noncompliance with contingency planning and testing
requirements. At the time of the outage, OIG did not know that NPS hosted either
the DOI or OIG website.

We offered 14 recommendations in total (5 to DOI and 9 to NPS), focusing on
establishing an oversight process, assessing system risk, maintaining accurate and
up-to-date documentation and contingency plans, and documenting service level
agreements that assign roles and responsibilities to all entities involved in web
hosting services.

Security at USBR Dams
Critical infrastructure and cyber systems increasingly rely on IT for essential
operations, making the protection of infrastructure from cyber threats a top
priority. In the past, information about the cyber element of critical infrastructure
was not widely known and thus helped protect the infrastructure. This anonymity
is disappearing, however, as Internet connectivity increases throughout the United
States and around the globe.

In FY 2014 OIG issued reports from several IT-related reviews of USBR-
controlled dam sites. These revolved around what is known as a SCADA system,
which operates and monitors dam IT, ranging from simple temperature sensors to
automated controls for generators and gate functions. Our objective was to assess
the security posture for the SCADA system based on recent warnings from the
U.S. Department of Homeland Security.

OIG’s findings revealed a host of IT-related security problems at some dams,
including software support, network connectivity, mobile media safeguards,
intrusion detection systems, inadequate antivirus architecture, unimplemented
automated continuous monitoring platforms, unimplemented vulnerability
scanning, and, finally, failure to address weaknesses identified in prior OIG
reviews. OIG issued a combined 12 recommendations to correct the observed
IT security weaknesses, noting needed improvements in infrastructure, software,
and implementation

At several other dams, OIG was pleased with the IT security presence within the
structures and had no findings or recommendations to offer.

Looking Ahead
Security Practices
The Federal Information Security Management Act of 2002 (FISMA) requires
agencies to develop policies and procedures commensurate with the risk and
magnitude of harm resulting from the malicious or unintentional impairment of
agency IT assets. To satisfy annual reporting requirements, agencies expend large


                                                                                  29
amounts of money and resources to document compliance with the 11 FISMA
reporting areas. An agency’s FISMA score (its compliance rate) has been found to
be unrelated to whether its IT assets are adequately protected from attack.

More recent FISMA guidance has shifted the focus of agency oversight from
periodic assessments and compliance reporting to using tools and techniques to
conduct ongoing monitoring of IT security controls. A well-designed and well-
managed continuous monitoring program can transform an otherwise static
security control assessment and risk determination process into a dynamic process
that provides essential information about a system’s security status on a real-time
basis. This, in turn, enables officials to take timely risk mitigation actions and
make risk-based decisions regarding the operation of their IT systems.

As part of our audit work, we learned that DOI does not have an IT security
program that fully meets FISMA requirements for vulnerability, threat, and
incident management as recommended by the National Institute of Standards and
Technology (NIST). Moreover, DOI’s efforts to implement a continuous
monitoring capability have not been fully realized due to insufficient resources.
In May 2014, we initiated an audit to evaluate DOI’s continuous IT security
control monitoring practices at three major bureaus (the U.S. Geological Survey,
Bureau of Safety and Environmental Enforcement, and Bureau of Reclamation).

Cloud Computing
Cloud computing is a model for enabling convenient, on-demand, network access
to a shared pool of computing resources, such as computer servers, storage,
software applications, and web services, that can be provisioned and released with
minimal management effort or service provider interactions. In other words, in a
cloud-computing environment, IT resources are available as needed through a
pay-as-you-go business model.

To accelerate the Federal Government’s use of cloud-computing strategies, the
Office of Management and Budget (OMB) requires agencies to adopt a “Cloud
First” policy when contemplating IT purchases and to evaluate secure, reliable,
and cost-effective cloud-computing alternatives when making IT investments. 11
Cloud computing offers the Department the potential for significant cost savings
through faster deployment of computing resources, a decreased need to buy
hardware or build data centers, and enhanced collaboration capabilities.

According to NIST, assessing and managing risk when putting a Federal agency’s
systems and data into a public cloud poses a challenge because the computing
environment is under the control of the cloud provider rather than the agency.
Thus, effectively managing the delivery of public cloud-computing services
requires agencies to develop contracts that address business and IT security risks,


11
  Office of the U.S. Federal Chief Information Officer, “25 Point Implementation Plan to Reform
Federal Information Technology Management.” Published December 2010.


                                                                                             30
as well as properly define and provide mechanisms to monitor agency and cloud
provider responsibilities.

At the end of 2013, the Office of the Chief Information Officer (OCIO) created a
cloud-computing project management office and established a cloud services
contract to help bureaus satisfy OMB’s “Cloud First” directive. We are
conducting an audit of DOI’s cloud-computing initiatives to determine whether
selected DOI contracts for cloud-computing services incorporated best practices
for mitigating key business and IT security risks associated with moving the
Department’s systems and data into a public cloud-computing environment.

Governance
An IT governance reform effort has been underway at DOI since January 2011 to
align IT investments with business and mission outcomes. IT governance is a
process for designing, procuring, and protecting IT resources.

Because IT is intrinsic and pervasive throughout DOI, the Department’s IT
governance structure directly affects its ability to attain its strategic goals.
Effective IT governance must balance compliance, cost, risk, security, and
mission success to meet the needs of internal and external stakeholders.

Federal regulations and policy require that the Chief Information Officer (CIO)
have the authority to terminate underperforming IT investments or shut down
systems that pose a significant risk to the enterprise. Achieving these outcomes
will require sustained improvements in DOI’s overarching IT management
practices and governance model. For example, although DOI leadership supports
the changes necessary for transformation success, management buy-in at the
bureau and office levels is a crucial component to achieve full consolidation and
address the challenges of IT infrastructure, security, resource management, and
governance. The commitment and cooperation of all DOI stakeholders are
essential for these efforts to be successful. In a future audit we will assess whether
DOI’s IT governance model results in the effective use of funds and promotes
sound IT security practices.

IT Transformation
IT supports every facet of DOI’s diverse missions. In December 2010, Secretarial
Order No. 3309 directed DOI’s CIO to assume oversight, management,
ownership, and control of all IT infrastructure assets, thus centralizing the
Department’s IT infrastructure and compliance functions. In January 2011, DOI
launched its IT Transformation initiative, a multiyear effort to significantly
improve the cost effectiveness of IT functions as well as shift from commodity-
based technology management to service-based management. DOI has established
goals for IT infrastructure consolidation that—

   •   promote green IT by reducing overall energy consumption (improve
       IT and real estate utilization);


                                                                                   31
   •   reduce the cost of data center hardware, software, and operations;
   •   increase the overall security posture for the Government; and
   •   shift IT investments to more efficient platforms and technologies.

Three years after its launch of the DOI Information Resources Management
Strategic Plan, the Department is only halfway through its transformation goal,
with centralized consolidated email through Google being a notable achievement.
OIG believes that more support is needed from the bureaus to implement the
changes necessary to complete the process. In a Department that contributes an
estimated $371 billion in economic activity to both public and private industry
with varying degrees of IT capability, it is critical that DOI continue to invest in
modernizing its IT functions and encourage bureau support.




                                                                                  32
Disaster Response
Disaster management—preparation, response, recovery, and mitigation—can be
costly, and typically involves the efforts of multiple Federal agencies, multiple
levels of government, and the private and nonprofit sectors.

DOI has the responsibility to provide for quick response, public safety, and
protection of natural resources during emergencies, as well as supporting tribal
and Insular Area communities. DOI is also a full partner in both the National
Response Framework and the National Recovery Framework, and contributes to
interagency plans supporting State, tribal, and local communities.
The destruction caused by Super Storm Sandy in October 2012 and the extensive
rebuilding effort in New York and New Jersey that followed provide a jarring
reminder of how sudden and devastating natural disasters and related events can
be. Super Storm Sandy damaged hundreds of thousands of homes, forced tens of
thousands of survivors into shelters, and caused billions of dollars in damage to
vital infrastructure systems, including power transmission, transportation and
water and sewage treatment facilities. As a direct result of the storm, 73 people in
the United States lost their lives.

In the wake of Super Storm Sandy, DOI received $787 million to support storm
relief and recovery efforts. To date, DOI has awarded $745 million in the form of
contracts and financial assistance (grants and cooperative agreements) for
emergency response, recovery, and mitigation purposes.

Summary of OIG Work
FY 2014 projects related to disaster response (specifically for Super Storm Sandy)
identified high-risk issues associated with contract oversight, pre-award
processes, and post-award monitoring.

Identifying High-Risk Issues and Practices
To help ensure that emergency funds are expended appropriately, OIG has
coordinated an intra-office team effort and actively monitored Super Storm Sandy
spending through outreach, data analysis, and audit and investigative support.
As a result, we have conducted 34 Super Storm Sandy-specific fraud awareness
briefings, reaching more than 436 Department personnel, State officials,
contractors, subcontractors, and grantees.

Our continued audits of contractors and subcontractors receiving Super Storm
Sandy funds have identified high-risk issues and practices for emergency
contracts related to disaster response. Contract oversight was found to be
inadequate with regard to pre-award and administrative processes, post-award
monitoring, labor hours, and equipment rates and rentals, and inspections. OIG
found many areas of weakness or questionable internal controls that highlight the
risks of emergency contracts for disaster response.


                                                                                  33
We have identified key factors that make emergency contracts for disaster
response riskier than normal:

   •   Emergency contracts are typically awarded in the short period of time
       right after a disaster. Most of these contracts have shorter periods of
       performance, making them high-risk contracts because DOI often cannot
       provide the same level of oversight.
   •   Emergency contracts add workload for the contracting officers and staff
       without providing them with additional assistance, thus necessitating that
       they work rapidly while potentially providing less effective oversight.
   •   Emergency contracts are more often awarded without competitive bidding,
       making reasonable prices for equipment and material rentals difficult to
       achieve at a time when such rentals in a disaster area are in shorter supply.
   •   Many such contracts are for debris cleanup and can involve multiple
       layers of contractors, subcontractors, and oversight. These include more
       administration (e.g., daily timesheets, daily logs, dozens of pieces of
       equipment, special protective suits, invoicing).
   •   Due to the uncertainties of disaster response, the Government relies on
       more cost-type contracts and modifications to increase existing contracts,
       rather than firm-fixed-price contracts. These cost-type contracts shift the
       burden to the Government to ensure that costs are reasonable, allowable,
       and allocable, thus requiring Federal contracting staff to take on increased
       oversight responsibilities (e.g., reviewing timesheets, contractor and
       subcontractor invoices, and other administrative items) during an already
       hectic time.

Contract Pre-Award and Administrative Processes
Across contract audits, we found the following types of problems—

   •   flaws in contractor selection by DOI/bureaus;
   •   insufficient presolicitation planning (e.g., failure to identify ordinary fair-
       market value for equipment rental) and competition (in two cases, a
       contract award made to the only bid received) by DOI/bureaus;
   •   lack of contractor experience in Federal contracting;
   •   inadequate financial management systems on the part of the contractor;
       and
   •   little or no knowledge of basic Federal contracting regulations on the part
       of the contractor.

Contract Post-Award Monitoring
Across contract audits, we found the following types of problems—

   •   timesheet errors made by contractors (e.g., timesheets lacking supervisory
       approval, employees signing off as supervisors, and duplicate billing), and
       failure to ensure correct timesheets or shift tickets and invoices on the part
       of DOI/bureaus;


                                                                                    34
   •   absence on the part of the contractor of shift tickets needed to support
       billed equipment costs;
   •   insufficient review and approval of submitted shift tickets and invoices, on
       the part of DOI/bureaus;
   •   invoices unsigned by the contractor, DOI/bureaus, or both;
   •   insufficient supporting documentation (e.g., equipment invoices,
       timesheets, and labor and payroll records) provided by the contractor;
   •   unsupported and duplicate expenses, inflated rental equipment rates, and
       incomplete timesheets and invoices on the part of the contractor;
   •   unreasonable, excessive equipment rental rates billed by contractors
       and/or subcontractors;
   •   incomplete or inaccurate equipment inspection reports from the contractor;
   •   related-party transactions billed to contracts; and
   •   poor administration and oversight by DOI/bureaus.

Looking Ahead
Obstacles and Risks
In its 2014 Strategic Plan, GAO noted that the Federal Government does not
budget for the costs of responding to a major disaster and runs the risk of facing a
large fiscal exposure at any time, for example, the fiscal risk presented by climate
change.

As the threat severity of natural disasters continues to grow, so will preparedness,
response, and recovery challenges at the Federal, State, and local levels. Scientific
assessments indicate that climate change is expected to result in more volatile
weather patterns, with potentially more frequent and severe natural disasters.
Among other capabilities, DOI needs to develop the ability to identify the
organizations and resources required to operationalize disaster response and
systematically prioritize resources to ensure effective use of Federal funds.

The Federal Government also continues to face challenges in developing useful
measures to assess preparedness and response capabilities. Natural disasters have
highlighted challenges facing Federal agencies in ensuring that homeowners and
businesses can recover from disasters.

Oversight Planning and Internal Controls
OIG anticipates that future disasters will present obstacles similar to those
encountered in the response to Super Storm Sandy. Ineffective monitoring
increases the risk of improper payments and untimely expenditures. We believe
that the following recommendations will improve oversight and lower the impact
of emergency work by reducing the risks of price gouging, unsupported
equipment and labor costs, and other fraud, waste, and abuse:

   •   DOI should develop and implement a policy for conducting pre-award
       assessments of potential contractors to reduce risk when awarding


                                                                                  35
       contracts. An assessment helps ensure that the potential contractor has
       adequate financial management systems and enables DOI to decide
       whether to award the contract, what type of contract to award, and whether
       to add conditions. It also allows management to plan the appropriate level
       of contractor oversight. Such assessments likely would identify
       contractors without knowledge of the Federal Acquisition Regulation,
       Federal contract experience, internal control policies and procedures,
       segregation of duties, and adequate financial capabilities.
   •   DOI should strengthen internal controls over post-award monitoring,
       particularly monitoring and keeping records of a contract’s supporting
       documentation (e.g., invoices, timesheets, and inspection reports).
       Ineffective monitoring increases the risk of improper payments and
       untimely expenditures.

OIG only performed cost-type contract audits in response to Super Storm Sandy.
While we acknowledge that cost-type contracts are allowable and beneficial, we
believe that the burden and increased oversight responsibilities they necessitate
for DOI contracting staff may outweigh their benefit. We also believe that the
Department should require more firm-fixed-price contracting during the initial
period after a disaster.




                                                                                36
Operational Efficiencies
As noted in GAO’s 2014 Strategic Plan, Government agencies will have to
become more efficient and effective at delivering services, achieving productivity
gains, and taking a risk-based approach to managing and allocating scarce
resources. As part of this effort, agencies need to look for opportunities to
minimize duplication, overlap, and fragmentation; re-order priorities and
determine how and in what areas to make trade-offs; and evaluate the immediate
and long-term effects of these decisions.

Summary of OIG Work
FY 2014 projects related to operational efficiencies focused on management of
resources and programs.

Revenue From DOI Resources and Activities
We continue our work to identify opportunities for DOI to increase revenues
through improved management of resources and programs.

Bureau of Land Management’s Mineral Materials Sales
BLM manages the sale of mineral materials on Federal lands; the mineral
materials program generates millions of dollars in revenue from public lands each
year. We audited the program to determine whether BLM obtained market value
for mineral materials.

We could not conclude that the Federal Government receives the full value of
revenues from this program. We found that BLM has little assurance that it
obtains market value for mineral sales, and its management of the mineral
materials program is hindered by outdated regulations and policies. BLM does not
always recover the processing costs for mineral materials contracts, which
resulted in more than $846,000 in lost revenue, or verify production volumes
reported for sales. We also found that BLM may be losing revenues due to
unauthorized use. BLM did not collect fees for mineral materials used on lands it
sold to a private developer, but informally valued the unpaid fees at more than
$1 million. Our report contains 15 recommendations that should help BLM
operate the program more efficiently and obtain adequate compensation for
mineral materials sold from Federal land.

Recreation Revenues
We are currently reviewing BLM and NPS recreation programs for potential
opportunities to enhance program revenue—a subject of particular relevance at a
time when Federal agencies have faced mounting fiscal pressures. Recreation
revenues are used to enhance the visitor experience, protect natural resources,
provide for public health and safety, and facilitate access to public lands and
recreation areas.



                                                                                37
In the BLM audit, we found that BLM is missing opportunities to enhance its
potential fee revenue, specifically: (1) BLM inconsistently uses its authority to
charge recreation fees at camping and day-use areas, some of which charge fees
and some of which do not, and (2) BLM does not collect market-value fees at a
number of its developed recreation sites, and has not reviewed its fees in several
years. We are also reviewing whether BLM effectively uses its authority to
designate sites suitable for fee collection.

In the NPS audit, we reviewed the agency’s three largest revenue-generating
mechanisms: entrance fees, interagency park passes, and commercial bus tour
fees. We found that NPS is missing opportunities to maximize its fee revenue:
(1) only one-fifth of entrance-fee-charging park units charge according to the NPS
entrance fee model; (2) NPS issues almost a million interagency park passes
annually, with well over two-thirds free or close to free; and (3) NPS has not
updated its fee schedule for commercial tour buses in 16 years.

Grants Management
Grants management has historically been subject to fraud and waste throughout
Government. OIG dedicates significant resources to reviewing the adequacy of
departmental and bureau grants management policies and procedures. Areas of
concern include insufficient presolicitation planning and competition, selection of
inappropriate award vehicles, and inadequate administration and oversight of
grants.

U.S. Fish and Wildlife Service (FWS) Grants to States Under the Wildlife and
Sport Fish Restoration Program
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport
Fish Restoration Act established the Wildlife and Sport Fish Restoration Program.
Under the program, FWS provides grants to States to restore, conserve, manage,
and enhance their sport fish and wildlife resources. The acts and Federal
regulations contain provisions and principles on eligible costs and allow FWS to
reimburse States up to 75 percent of the eligible costs incurred under the grants.
The acts also require that hunting and fishing license revenues be used only for
administration of the States’ fish and game agencies. Finally, Federal regulations
and FWS guidance require States to account for any income earned using grant
funds.

This year, FWS announced that grant funds to be distributed through the program
exceeded $1 billion. As with any financial assistance program, a system of
monitoring and independent audit must provide assurance that the funds are used
appropriately. Each year, OIG conducts several audits to determine whether States
(1) claimed program costs in accordance with the acts and related regulations,
FWS guidelines, and grant agreements; (2) used State hunting and fishing license
revenues solely for fish and wildlife program activities; and (3) reported and used
program income in accordance with Federal regulations.



                                                                                 38
OIG completes about 13 grant audits each year for FWS. We continue to work
with FWS officials on any audit findings, so that their monitoring activities can
help States resolve the findings and prevent recurrence.

Coastal Impact Assistance Program
We audited grants awarded in Louisiana under the Coastal Impact Assistance
Program (CIAP) to determine whether recipients complied with CIAP’s
authorizing legislation, grant regulations, DOI policies, and grant terms and
conditions, and whether FWS effectively administers CIAP.

DOI awarded the State of Louisiana and its 19 eligible parishes 127 CIAP grants
totaling $494.2 million between April 2008 and March 2013. During our audit,
we reviewed 47 grants totaling $367.2 million and found several issues with grant
monitoring that raised concerns about the potential for misuse of funds. Our audit
identified $12,930,654 in questioned costs, as well as $4,347,739 in funds to be
put to better use. We found significant deficiencies in FWS’ and the State’s
management of CIAP grants, such as ineffective grant monitoring by FWS,
insufficient State unused pre-award funds, improper contracts, unsupported
payroll charges, over-allocated indirect charges, and inadequate land appraisals.
We made 31 recommendations to target the identified deficiencies and seek to
improve FWS’ management and oversight of CIAP funds.

Wild Horse Gentling and Rehabilitation
At BLM’s request, we audited $5,338,880 in costs reported for a horse-gentling
program via cooperative agreement under the National Wild Horse and Burro
Program. We identified questioned costs of $2,004,553, which included
unsupported costs for contractual services and equipment rental, charging
unallowable building and depreciation costs to BLM, and using an unapproved
indirect cost rate to charge BLM.

Contract Management
OIG has dedicated significant resources to review the adequacy of departmental
and bureau policies and procedures related to contract management. Across
contract audits, we have identified areas of concern—for example, the high-risk
factors and practices described in the “Disaster Response” section. The cross-
cutting areas pertaining to operational efficiencies include contractor selection,
insufficient pre-solicitation planning and competition, inappropriate award vehicle
selection, and poor administration and oversight of contracts.

Specific problems that we identified during our contract audits in FY 2014
included—

   •   contractors with little to no Federal contract experience;
   •   contractors billing unsupported and inadequate timesheets;
   •   contractors billing unsupported equipment;
   •   contractors billing duplicate costs;


                                                                                    39
   •   contractors overcharging for equipment rental;
   •   contractors billing ineligible overhead rates and incorrect employee billing
       rates;
   •   contractors billing out-of-period costs; and
   •   contractors with deficient accounting systems, and lacking segregation of
       duties.

Looking Ahead
Grant and Contract Management
DOI awarded approximately $9 billion in new grants and contracts in FY 2014.
Significant reforms to OMB guidance will require improved monitoring of
grantees. On December 26, 2013, OMB issued final guidance titled “Uniform
Administrative Requirements, Cost Principles, and Audit Requirements for
Federal Awards.” This new guidance, often referred to as the “Super-Circular,”
will significantly affect day-to-day management and administration of Federal
grants.

The new guidance increases competition for Federal grant funds and improves
transparency. Specific requirements that will affect DOI include—

   •   Public notice for grants. Federal awarding agencies must notify the
       public of Federal programs through the Catalog of Federal Domestic
       Assistance (CFDA). The Digital Accountability and Transparency Act
       (DATA Act) of 2014 also will add more transparency requirements for
       agencies to submit accurate and complete data to USASpending.gov.
   •   Merit-based review of applications. Federal awarding agencies must
       design and execute a merit review process for all grant applications. The
       review process must be described or referred to in the corresponding
       funding opportunity.
   •   Risk analysis of potential grantees. Prior to making a Federal award, an
       agency must have a framework in place to determine the eligibility and
       risks of applicants. Risk factors include financial stability, quality of
       management systems, performance history, audit findings, and the
       applicants’ effectiveness in implementing statutory and regulatory
       requirements.
   •   Standardization of information. In an attempt to reduce variation
       between Federal agencies, the Super-Circular requires each Federal award
       to include 15 uniform datasets, including the timing, scope, and expected
       performance and outcomes.

These new requirements and already existing challenges in grant monitoring will
require DOI to focus its efforts on this area for the foreseeable future. Aspects
include performing the required risk assessments, using the Single Audits for
ongoing monitoring, reviewing supporting documentation for reimbursable costs,
and ensuring that grant recipients are using approved indirect cost rates.



                                                                                 40
Likewise, contracts should be awarded and administered in an efficient, effective,
and accountable manner. Like all Federal agencies, DOI is challenged to ensure
proper management and oversight of contracts. Specifically with regard to post-
award monitoring, DOI will need to strengthen internal controls, particularly the
monitoring and recordkeeping of a contract’s supporting documentation, such as
invoices, timesheets, and inspection reports.

Improving Employee Safety and Reducing Workers’ Compensation
Costs
The Federal Employees’ Compensation Act (FECA) provides medical benefits,
income replacement, and certain supportive services to Federal civilian employees
with work-related illnesses or injuries, or in the case of death, survivor benefits to
family members. DOI’s workers’ compensation costs, total case rate, and total
lost-time cases continue to climb despite efforts to better manage the program.
Two factors that are key to improving management include—

   •   Employee safety in DOI. The costs of FECA benefits are initially paid by
       the U.S. Department of Labor through the Employee Compensation Fund
       and reimbursed by DOI at the end of each fiscal year. OIG plans to review
       key safety data to help identify factors driving cost increases and position
       DOI to target improvements in its employee safety programs.
   •   Learning from the POWER initiative. In 2010, the President established
       a 4-year initiative called Protecting Our Workers and Ensuring
       Reemployment (POWER) to advance Government workplace safety and
       health efforts, covering FYs 2011 through 2014. OIG plans to review
       DOI’s efforts under the POWER initiative, to identify promising practices
       for employee safety and reducing related compensation costs.




                                                                                   41
Public Safety
Each year, millions of individuals visit DOI’s national parks and monuments,
wildlife refuges, and recreational sites. DOI is responsible for serving these
visitors and for maintaining and protecting thousands of facilities and millions of
acres of property. In some cases, the isolation of lands and facilities presents
unique vulnerabilities, making public safety a challenge.

Summary of OIG Work
FY 2014 projects related to public safety included review of underground
injection control well activities and the U.S. Park Police firearms program.

Protection of Underground Water Sources
DOI is tasked with managing and protecting resources on Federal and Indian
lands, including underground sources of drinking water. To help protect water
quality, the U.S. Environmental Protection Agency (EPA) regulates injection
wells, which place fluids underground for storage or disposal.

In March 2014, OIG completed an audit of the Department’s underground
injection control well activities. OIG found several issues with Class V injection
wells (shallow gravity-drained wells) managed on DOI lands that could
potentially threaten underground sources of drinking water. OIG found that DOI
has no overarching guidance or policy to assist bureaus in complying with the
EPA’s regulations concerning Class V injection wells. This has led to a
patchwork of inconsistent or nonexistent policies. In addition, DOI has not
effectively tracked and managed the Class V wells, leaving them noncompliant
with EPA’s regulations to self-report these wells. OIG also found instances where
well types banned from operation in 2005 were still operational on departmental
lands. OIG provided seven recommendations to DOI and its bureaus that we
believe will help them comply with EPA’s regulations and safeguard underground
sources of drinking water.

U.S. Park Police Firearms Management
OIG conducted simultaneous, unannounced inspections of unassigned weapons at
U.S. Park Police (USPP) facilities after receiving an anonymous complaint
regarding potentially missing weapons. OIG identified systemic internal control
weaknesses that have impaired USPP’s ability to properly account for and
monitor weapons acquired for agency use. OIG found that staff at all levels—
from firearms program managers to their employees—had no clear idea of how
many weapons they maintained due to incomplete and poorly managed inventory
controls. As a result, OIG discovered hundreds of handguns, rifles, and shotguns
not accounted for on official USPP inventory records. The inability to properly
account for and monitor weapons creates an environment where weapons are
vulnerable to theft or misuse.



                                                                                 42
We also found that individuals appointed to oversee the USPP firearms program,
which includes accountability for all USPP weapons, gave only minimal
supervision to officers and other program staff with access to unassigned
weapons. Firearms managers accepted verbal assurance that firearms inventories
were completed correctly rather than taking personal responsibility for accuracy.
This situation created discrepancies between firearms accounted for in the USPP
inventory and those weapons that were on hand but not included in inventory
records. We were unable to establish the existence of a clear USPP policy or
procedure for reporting and investigating missing weapons, and also no clear
process for communicating such information. USPP failed to comply with DOI
policy governing firearms.

We provided 10 recommendations to improve firearms management. Due to the
noncompliant and ad hoc USPP firearms inventory method, OIG could not
determine whether any USPP personnel had taken weapons for unauthorized use.
USPP’s inability to consistently and accurately account for weapons left us with
insufficient data on which to base such a determination.

Looking Ahead
BIA Detention Facilities
Detention of inmates in Indian Country is always an area of concern for DOI. The
responsibility of ensuring inmates’ safety and security not only falls upon the BIA
Office of Justice Services (OJS) staff, but also is highly dependent on the facilities
in which they are housed. Currently BIA OJS management does not have direct
control or oversight of the physical structure of the detention facilities, relying
instead on BIA’s Office of Facilities, Environmental and Cultural Resources to
address facility deficiencies or safety concerns.

In addition, numerous tribes across Indian Country have received grants from the
U.S. Department of Justice to construct new detention facilities. In many
instances, general contractors perform substandard work, resulting in a facility
that cannot be opened (or used). Contractors also are not held accountable during
the construction phase. Unless internal controls and oversight are strengthened,
BIA detention facilities will continue to be an area of concern for DOI.

Increased Tourism
In June 2014, the Secretary signed a memorandum of understanding (MOU) with
members of the Western States Tourism Policy Council and other Federal
agencies recognizing the importance of tourism on Federal lands and waters.
Tourism to national parks and federally managed lands is a driving economic
force in the Western States. Travelers visiting Western States in 2012 spent
$277 billion. More than 83 million people visited national parks in the West in
2013. The MOU renews for 5 years an ongoing agreement between States and
Federal agencies (in place since 1997) to work together to advance domestic and
international tourism on public lands and spur economic growth.



                                                                                   43
While increasing visitors to the national parks and federally managed lands
benefits Western States economically and builds public support for DOI
programs, an increased number of visitors also raises public safety concerns,
especially in remote regions of the parks, during inclement weather, or with
regard to protecting more visitors from animals such as bears. NPS and BLM
could potentially find it challenging to adequately plan for and monitor the
additional vendors needed to support increased visitor numbers and avoid
potential occurrences such as the summer 2012 hantavirus outbreak in NPS tent
cabins.

At national parks and federally managed lands, ensuring the health and safety of
visitors is just as critical for DOI as protecting and preserving these areas.




                                                                                44
Conclusion
We remain committed to focusing our resources on the issues related to these
challenges to ensure greater accountability, promote efficiency and economy in
operations, and provide effective oversight of the activities that embody DOI’s
mission.




                                                                                  45
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
